<html>
<title> - MANAGEMENT OF AIR TRAFFIC CONTROLLER TRAINING CONTRACTS</title>
<body><pre>[Senate Hearing 113-323]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-323
 
        MANAGEMENT OF AIR TRAFFIC CONTROLLER TRAINING CONTRACTS 

=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON FINANCIAL AND CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 14, 2014

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

88-271 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


          SUBCOMMITTEE ON FINANCIAL AND CONTRACTING OVERSIGHT

                       CLAIRE MCCASKILL, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARK L. PRYOR, Arkansas              JOHN MCCAIN, Arizona
MARY L. LANDRIEU, Louisiana          MICHAEL B. ENZI, Wyoming
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
TAMMY BALDWIN, Wisconsin
                     Margaret Daum, Staff Director
                 Rachel Weaver, Minority Staff Director
                       Kelsey Stroud, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator McCaskill............................................     1
    Senator Johnson..............................................     3

                               WITNESSES
                       Tuesday, January 14, 2014

Mary Kay Langan-Feirson, Assistant Inspector General, Acquisition 
  and Procurement Audits, Office of Inspector General, U.S. 
  Department of Transporation....................................     4
Patricia McNall, Deputy Assistant Administrator, Acquisitions and 
  Business Services, Federal Aviation Administration, U.S. 
  Department of Transportation...................................     6
Lynn Dugle, President, Intelligence, Information, and Services, 
  Raytheon Company...............................................     7

                     Alphabetical List of Witnesses

Dugle, Lynn:
    Testimony....................................................     7
    Prepared statement...........................................    49
Langan-Feirson, Mary Kay:
    Testimony....................................................     4
    Prepared statement...........................................    31
McNall, Patricia:
    Testimony....................................................     6
    Prepared statement...........................................    41

                                APPENDIX

Responses to post-hearing questions for the Record:
    Ms. McNall...................................................    55
    Ms. Dugle....................................................    69


        MANAGEMENT OF AIR TRAFFIC CONTROLLER TRAINING CONTRACTS

                              ----------                              


                       TUESDAY, JANUARY 14, 2014

                               U.S. Senate,        
        Subcommittee on Financial and Contracting Oversight
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill and Johnson

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Good afternoon. I apologize for being a 
few minutes late. We just finished our weekly caucus, and as 
usual, it was rainbows and unicorns. Just kidding. It was 
contentious and difficult today, so we went over a little bit.
    This hearing will now come to order. We are here today to 
review the Federal Aviation Administration's (FAA) management 
of the Air Traffic Control Optimum Training Solution (ATCOTS).
    ATCOTS is an important contract because it supports the 
training of this Nation's air traffic controllers, who, in 
turn, manage the Nation's air traffic, a critical service. In 
the next few years, we expect to see more and more retirements 
from the generation of air traffic controllers that were hired 
after the 1981 strike. At the time this contract was awarded in 
2008, the FAA had a goal to hire and train 17,000 controllers 
by 2015 in order to meet the expected demand. The FAA also 
wanted to improve training to meet the needs of the new NextGen 
air traffic control system.
    In order to achieve this goal, the FAA awarded a contract 
to Raytheon to provide training to facilities across the Unied 
States in 2008. In 2010, 2 years into the contract, the 
Department of Transportation Office of Inspector General (DOT 
OIG) audited this contract and found significant problems. The 
contract was premised on certain parameters, that there were 
going to be 4,000 recruits to train and 159 sites to support. 
But within just a few months, those numbers had increased 
dramatically, to 5,620 recruits at 195 sites. The cost of the 
contract had skyrocketed, and FAA was in danger of running out 
of money under the contract.
    The Inspector General (IG) had several recommendations for 
the FAA. The most important one was that FAA needed to figure 
out what training it needed and how much it was going to cost. 
Unfortunately, FAA failed to take the IG's recommendation to 
heart. Instead, FAA let the contract continue unchanged, 
racking up at least $89 million in additional costs to the 
taxpayer. Finally, as warned by the Inspector General, FAA ran 
out of money a year early.
    Again, FAA had the opportunity to follow the IG's common 
sense recommendation to figure out what training it needed. 
Instead, FAA decided the best course of action was to exercise 
the contract's option period early.
    I wrote to the then-Acting Administrator Huerta in 2012, 
asking FAA to consider its plan carefully and to implement the 
Inspector General's recommendations by updating cost estimates, 
defining training requirements, and developing performance 
measures for the contractor as opposed to the inappropriate 
notion that the contractor provided their own performance 
measures, all basic elements of good contracting. But, FAA did 
not do this.
    In 2013, the Inspector General released a second report 
about the ATCOTS contract. The Inspector General found that 
while there has been some improvement, FAA still has not 
figured out its training needs. In addition, it appears that 
FAA has managed to bring the costs of the contract under 
control only by cutting the amount of training provided by the 
contractor and instead relying on Certified Professional 
Controllers to fill the gaps. FAA has been unable to tell the 
Inspector General or this Subcommittee how much using these 
highly paid government employees had added to the costs of 
training new air traffic controllers.
    In addition, more than 5 years and $512 million later, the 
FAA has not achieved any of the three critical goals of the 
original ATCOTS contract: Reduce training costs, reduce 
training times, and bringing training innovations.
    Today's hearing is about learning from the past mistakes, 
fixing problems, and moving forward. I want to spend some time 
having a discussion with the Office of Inspector General, the 
FAA, and Raytheon in order to understand how these problems 
came about and why they have not been addressed earlier. I want 
to learn what both the FAA and Raytheon are doing right now to 
get this contract back on track and what is being done to try 
and achieve some of the initial goals of the contract.
    I also want to understand what the FAA is doing to better 
manage and oversee its contracts. This is especially important 
because I understand that the FAA may start the acquisition 
process on a new training contract later this year. I want this 
Subcommittee to be satisfied that FAA has learned its lesson 
and will not make these mistakes again. I want to know that the 
FAA is taking concrete steps to address deficiencies, is 
committing to making smart contracting decisions, and will 
ensure that its own acquisition policies are actually followed. 
I do not want to be here in a year's time having the exact same 
hearing again.
    Congress and the American public have entrusted the FAA 
with taxpayer dollars and trust them to maintain the safety of 
our airspace. Just this weekend in my State, a plane mistakenly 
landed on the wrong airport in Missouri, coming dangerously 
close to the end of a runway that was too short for the 
aircraft in question. While there is no evidence of a 
connection of what we are exploring here today and what 
happened in Missouri, it is hard to understand how the air 
traffic controllers allowed a Southwest Airline--and we are not 
talking about a small general aviation aircraft, we are talking 
about a domestic carrier of American citizens--how they allowed 
them to land at the wrong airstrip, at the wrong airport, on 
the wrong runway.
    It is a timely reminder of the need to ensure that the 
resources we spend on air traffic safety are spent effectively, 
and that if we do not have enough in the contract to adequately 
train our controllers, that we confront that rather than 
continuing to renew contracts that have not been working or 
have not had the oversight that common sense dictates.
    I thank the witnesses for being here and I look forward to 
their testimony.
    Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Madam Chairman. You are 
correct. This is a very timely hearing. I appreciate you 
calling it.
    I did read the Inspector General's report. It raised 
probably more questions than it answered, so I will certainly 
second your opening comment in terms of all the questions that 
you would like to have answered during the hearing.
    One of the things I certainly did in reviewing this and 
getting ready for this hearing is just take a look at the 
reasonableness of the cost per training. Since 2009, the 
average cost--this is per the Raytheon contract--was about a 
little under $20,000 per air traffic control trainee. It rose 
to as high as $29,000, and in 2013 was about $26,000. That is 
relatively high training costs. You can compare that to college 
education. So, based on that information, I do not know if that 
is appropriate or inappropriate in terms of the total expense. 
I want to understand exactly how the training occurs, who is 
doing it, how much is done by the FAA, how much is done by 
Raytheon, what the breakdown is, how intensive this training 
is. So, I just really want to understand the complete training 
process.
    I am certainly looking forward to the testimony. I am 
hoping that is the kind of information I certainly get out of 
this hearing. But, again, I certainly thank the witnesses for 
coming here and being willing to testify and look forward to 
your testimony.
    Thank you, Madam Chairman.
    Senator McCaskill. Let me introduce the witnesses today.
    First, we have Mary Kay Langan-Feirson, who is the 
Assistant Inspector General for Acquisition and Procurement 
Audits at the U.S. Department of Transportation, Office of 
Inspector General. In this capacity, she oversees audits 
relating to the Department of Transportation acquisition and 
procurements, including direct contracts and contracts awarded 
by grantees. Prior to joining the Office of Inspector General, 
Ms. Langan-Feirson worked in the Department of Transportation's 
Office of General Counsel for 30 years.
    Patricia McNall is the Chief Acquisition Officer and Deputy 
Assistant Administrator for Finance and Management at the 
Federal Aviation Administration, and I will say with a sense of 
a humor, obviously the person who got the short straw at the 
FAA. I will say on the record, I am disappointed--not that I am 
not thrilled to have you, Ms. McNall, but I think the person 
who should be sitting there should be the person who has 
oversight of this program. They declined to attend this and 
sent you, and that--I will give you a chance to address that 
when you testify, but I do not think you are in a position to 
know as much about this as we need to know and it is 
disappointing, but I will tell you candidly in this particular 
area, I was not shocked when I heard that you were being sent 
in terms of getting the short straw.
    In your outstanding 30-year FAA Career, you have served in 
various positions, including Acting Deputy Assistant 
Administrator for Policy, Planning, and International Aviation, 
and Deputy Assistant Chief Counsel for FAA's Technical Center. 
Prior to assuming your current position, you were the FAA's 
Assistant Chief Counsel for Acquisition and Commercial Law.
    Lynn Dugle is a Vice President at Raytheon Company, and 
President of Raytheon Intelligence, Information, and Services, 
a position she has held since 2009. Before joining Raytheon in 
2004, Ms. Dugle held officer-level positions with ADC 
Telecommunications and began her career at Texas Instruments.
    I thank all three of you for being here. It is the custom 
of this Subcommittee to swear in all witnesses that appear 
before us, so if you do not mind, I would ask you to stand and 
take the following oath.
    Do you swear that the testimony that you are about to give 
before this Subcommittee will be the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Ms. Langan-Feirson. I do.
    Ms. McNall. I do.
    Ms. Dugle. I do.
    Senator McCaskill. Thank you all very much.
    We will be using a timing system today. We are not 
sticklers about that, but we will ask you to try to keep your 
testimony to 5 minutes. Obviously, you are welcome to supplant 
your oral testimony today with any other information you would 
like to have us put in the record concerning our hearing topic.
    And we will begin with you, Ms. Langan-Feirson.

 TESTIMONY OF MARY KAY LANGAN-FEIRSON,\1\ ASSISTANT INSPECTOR 
  GENERAL, ACQUISITION AND PROCUREMENT AUDITS, OFFICE OF THE 
      INSPECTOR GENERAL, U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Langan-Feirson. Chairman McCaskill, Ranking Member 
Johnson, thank you for inviting me here today to testify on 
FAA's Air Traffic Control Optimum Training Solution contract. 
The $859 million contract was intended to provide up to 10 
years of support to train approximately 17,000 air traffic 
controllers, most of whom FAA planned to hire over the next 
decade.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Langan-Feirson appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    In September 2010, we reported several contract weaknesses 
that challenged FAA's efforts to effectively manage the ATCOTS 
program. FAA has made progress in addressing many of the 
weaknesses we identified. However, more than 3 years after that 
report, FAA has yet to address our most important 
recommendation, which is to clearly define controller training 
requirements and determine whether they can be achieved within 
the existing cost baseline of $859 million.
    Specifically, we recommended that FAA update its training 
requirements and develop criteria for determining whether the 
agency should exercise contract options beyond the 5-year base 
contract. Despite our recommendation, the ATCOTS program 
experienced four consecutive years of cost overruns, totaling 
about $89 million, due largely to FAA's lack of clearly defined 
requirements. In the first 2 years alone, contract costs 
exceeded negotiated values by $46 million, and the contractor 
was required to provide far more training than FAA originally 
estimated.
    As a result, FAA ran out of money in the fourth year of the 
base contract and was not prepared to make an informed decision 
on how to best meet its controller training program needs. 
Ultimately, FAA chose to exercise the contract's first option 
period a year earlier than planned without first clearly 
defining its training requirements or determining whether to 
exercise the option or take a different acquisition approach.
    In our most recent report, released last month, we know 
that FAA has taken some steps to better assess its training 
needs. For example, FAA reestablished its use of an annual 
workplan to better identify training requirements. However, the 
plan still does not capture all of FAA's training needs, 
including training on new air traffic controller systems, such 
as the En Route Automation Modernization (ERAM). If FAA does 
not clarify and update its training requirements, the ATCOTS 
program remains at risk of cost overruns in the future.
    During our recent audit of ATCOTS, we also identified 
contract management weaknesses that undermine FAA's ability to 
achieve its training goals. For example, FAA has not used its 
award fees or incentive fees to manage the contract 
effectively. One of the FAA's key training goals is to reduce 
training times, but the award fee performance measures have not 
been adequately linked to this goal, an issue we first reported 
in 2010. Between fiscal years 2009 and 2012, controller 
training times actually increased by an average of 41 percent, 
taking 9 months longer, on average, to certify each controller. 
Over the life of the contract, FAA paid the contractor over $17 
million in award fees for performance measures that did not 
effectively motivate the contractor. FAA also paid $14 million 
in incentive fees despite 4 years of cost overruns. This is 
counterintuitive to the concept in use of award fees.
    In its response to our 2013 report, FAA announced that its 
goal is to award a new contract to replace ATCOTS as early as 
fall of 2014. To avoid repeating the problems with ATCOTS, it 
is crucial that FAA address our recommendation to clearly 
define its training requirements and decide whether it needs to 
rebaseline before awarding a new contract. We will continue to 
monitor FAA's progress in implementing our recommendations and 
provide this Committee, the Secretary, and FAA with future 
updates on the program.
    This concludes my prepared remarks. I would be happy to 
answer any questions you may have.
    Senator McCaskill. Thank you very much.
    Ms. McNall.

       TESTIMONY OF PATRICIA MCNALL,\1\ DEPUTY ASSISTANT 
  ADMINISTRATOR, ACQUISITIONS AND BUSINESS SERVICES, FEDERAL 
   AVIATION ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Ms. McNall. Good afternoon, Chairman McCaskill and Ranking 
Member Johnson. I am Pat McNall, the FAA's Acquisition 
Executive, and I am responsible for the agency's acquisitions. 
I appreciate this opportunity to speak with you today about the 
FAA's Air Traffic Controller Training Contract.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. McNall appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    The FAA's mission is to ensure the safest, most efficient 
airspace system in the world, but we are also committed to cost 
effectiveness. The taxpayer expects and deserves nothing less.
    In 2005, the FAA projected the need to hire 17,000 
controllers by 2015. This unprecedented level of hiring and 
training was necessary to replace the large number of expected 
retiring controllers and meet projected increases in air travel 
demand. To manage this large training effort, the FAA proposed 
replacing two existing level of effort contracts with a single 
centrally managed performance-based contract. Simply put, this 
means we were removing and transitioning from existing 
contracts where we specified the number of instructors and the 
method of providing the training to a new contract that would 
specify the number controllers to be trained, plus or minus 10 
percent, allow the contractor to determine the best means of 
training these controllers, while we measure its effectiveness 
and ability to do so according to pre-set metrics.
    In September 2008, after running a full and open 
competition, the FAA awarded the contracted titled the Air 
Traffic Control Optimum Training Solution contract, to Raytheon 
Technical Services Corporation with a ceiling value of $859 
million. In the early years of the contract, however, we 
encountered significant challenges and costs. We underestimated 
the difficulty in transitioning from level of effort contracts 
in place for over 20 years to the new performance-based ATCOTS 
contract. We reverted to the methods we knew had been working 
in the past. Our training needs, both in the number of students 
and the technology for which we needed to provide the training, 
accelerated faster than we anticipated. We incurred a 
substantial cost, accordingly.
    We have taken significant steps to improve our management 
of the ATCOTS contract. I would like to highlight a few of 
these steps. The FAA provided increased management attention 
and requirements control by consolidating all training under 
the FAA's Air Traffic Organization Vice President for Safety 
and Technical Training. Additionally, we imposed an award fee 
structure that motivates the contractor to control costs. We 
implemented a new training planning tool to better define and 
control our dynamic training needs. We developed guidelines to 
monitor required performance standards and expected outcomes 
for the contractor, and we hold our oversight staff accountable 
for overseeing these standards. These changes are improving our 
oversight, management, and administration of the ATCOTS 
contract.
    We appreciate the Office of Inspector General's audit of 
the contract. We are confident that the measures we have taken, 
which fall in line with their recommendations, will allow us to 
stay on track for the remainder of this contract.
    The FAA recently issued a market survey and request for 
information as the first step to a possible replacement of the 
ATCOTS contract. If we proceed with this procurement, we will 
replace the contract before the end of this calendar year. 
Whether we replace it or not, I am confident that we will 
continue to provide quality air traffic control training.
    The training of air traffic controllers will continue to be 
a critical need for the agency. We estimate that we will need 
to hire 11,700 controllers by the year 2022. In order to 
maintain safety and handle the high volume of air traffic, we 
need to maintain a steady hiring and training rate through this 
time. Our ability to do that, however, has been challenged by 
decreased funding, including the sequestration. All training 
courses at the FAA Academy were canceled since sequestration 
was implemented and have only resumed this month.
    The FAA was also unable to hire any new air traffic 
controllers and will have to now accelerate hiring, budget 
permitting, to ensure that we have a sufficient number of 
controllers. This increased rate of hiring will bring with it 
increased training requirements beyond what we predicted for 
this coming year.
    Whenever we face uncertainty about hiring and funding, we 
face uncertainty about our training requirements. This makes it 
very difficult to predict, cost, and plan for the best and most 
effective cost effective contract we can have, but we remain 
committed to ensuring the safety of the National Airspace 
System and will not ever compromise safety, even in these 
uncertain times.
    Ms. Chairman, this concludes my statement and I would be 
happy to take questions at this time.
    Senator McCaskill. Thank you very much.
    Ms. Dugle.

     TESTIMONY OF LYNN DUGLE,\1\ PRESIDENT, INTELLIGENCE, 
          INFORMATION, AND SERVICES, RAYTHEON COMPANY

    Ms. Dugle. Good afternoon, Chairman McCaskill and Ranking 
Member Johnson. I am Lynn Dugle, President of the Intelligence, 
Information and Services business of the Raytheon Company, the 
business which is the prime contractor for the ATCOTS program. 
Thank you for the opportunity to address the Subcommittee on 
Raytheon's management of the program, our ongoing efforts to 
reduce cost, and the new training innovations we can bring to 
the program.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Dugle appears in the Appendix on 
page 49.
---------------------------------------------------------------------------
    Before I do so, let me provide some relevant context on 
Raytheon and our training. We are one of the world's leading 
providers of mission critical training solutions. We train more 
than two million people a year whose missions include national 
defense, U.S. intelligence operations, cybersecurity, and, of 
course, national airspace management. In addition, our training 
solutions extend to critical needs in the commercial sector.
    Raytheon is also one of the world's largest providers of 
air traffic management systems. Our systems control more than 
two-thirds of the world's airspace and our company is an active 
participant in the FAA's Next Generation program.
    By way of starting, let me say that Raytheon agrees with 
the general conclusion of the IG report that progress has been 
made, yet much more work remains. Raytheon and the FAA have 
built a partnership that has addressed the agency's very 
dynamic training needs for more than 5 years. During the last 
year, we have accelerated those improvements, and now, we have 
a solid foundation to get future gains.
    Let me now share my thoughts on the three topics that the 
Committee requested Raytheon to cover, management of the 
contract, cost reductions, and new training innovations or 
transformation.
    The management of this contract was challenged from the 
start by those unexpected increases in cost and scope that were 
identified after the contract began. This included a hiring 
surge that resulted in a 40 percent increase in year one. There 
were also new training requirements for 700 of these new 
trainees. There were new air traffic control system 
modernization requirements, the ERAM that you mentioned, and 
new tower simulation needs.
    Nevertheless, Raytheon responded to those challenges by 
training 20 percent more individuals over the 4-year period. We 
lowered the cost per student on Raytheon-delivered training by 
6 percent, lowered the cost--decreased the controller failure 
rate by 12 percent. We shortened class durations at the Academy 
by 10 percent. And we achieved a 23 percent increase in the 
utilization of the complex and expensive tower simulators.
    On the topic of cost reduction, Raytheon and the FAA are 
working together to maximize the training that can be 
delivered, can be accomplished, within the budget given. Let me 
cover some of the changes we have already made.
    For the first time, FAA's field managers, onsite managers, 
are involved in deciding local training priorities, which will 
lead to more effective and more efficient training across the 
system. Their involvement was enabled by a new planning and 
execution tool developed by Raytheon at our own expense to 
assist with that planning. In partnership with the FAA, we have 
also implemented new workforce practices and scheduling 
efficiencies at the Academy that will reduce the fiscal year 
(FY) 2014 costs by an additional 5 percent. We have also 
reduced our Program Management Office by 20 percent, after 
working with the FAA to streamline contractual reporting 
requirements. This reduction will result in $2 million of 
annual savings.
    Let us shift to the topic of new training innovations. I, 
again, agree with the IG report that significant opportunities 
exist to further modernize training and reduce our cost. With 
support and approval from the FAA, we can implement innovations 
that will allow us to deliver high-quality training at a much 
lower cost.
    Raytheon has provided numerous proposals and white papers 
outlining potential areas for important innovations. The 
biggest opportunity now before us is the implementation of the 
ATCOTS Curriculum Architecture Project. This project created a 
blueprint for the systematic modernization and transformation 
of air traffic controller training by identifying the best 
training mechanisms, methodologies, and then how to best 
sequence the training to avoid any duplication. We have also 
presented and shared other opportunities with the FAA, such as 
Virtual Classroom Training and the implementation of remote 
training for the Air Traffic Basics Course, both of which I 
discussed in more detail in my written testimony.
    I would like to conclude by emphasizing that significant 
progress has been made over the past year in a very complex, 
challenging, and critically important program. Raytheon and the 
FAA have established a solid foundation for future performance 
gains and future cost reductions. I believe Raytheon has the 
program knowledge, the transformational training capabilities, 
and the larger air traffic management domain experience to 
continue to collectively support the FAA and meet the training 
needs of our air traffic control professionals.
    Thank you very much for the opportunity. I look forward to 
answering any questions you may have.
    Senator McCaskill. Thank you, and once again, I appreciate 
all of you being here.
    I would ask each of you before we begin questioning, if you 
would, to try to assign a grade to the management and oversight 
of the ATCOTS contract. Ms. Langan-Feirson, what grade would 
you give it?
    Ms. Langan-Feirson. An incomplete.
    Senator McCaskill. Ms. McNall. That was kind. Ms. McNall.
    Ms. McNall. I am inclined to agree. Actually, I would also 
point out, I think the grade has changed over time, all right, 
so I would say we started off with a C, at best, and then it 
progressed to a B.
    Senator McCaskill. OK. And Ms. Dugle.
    Ms. Dugle. I think on the management of the program and 
meeting our budget constraints, none of us would be pleased 
with our grade. I think on the quality of the training 
delivered, I would give us a much higher grade. I also would 
warmly embrace the idea that we have improved through time, 
improving more and more as each year has progressed.
    Senator McCaskill. I know that the FAA has implemented some 
of the recommendations from the initial audit, though. I think 
the thing that is hardest for me is, as was mentioned in Ms. 
Langan-Feirson's testimony, it did not implement the most 
critical recommendation, which is to assess your training needs 
and figure out what you want. That is the most important thing 
in contracting in government, is to know what you want. You 
cannot get a bargain if you do not know what you want. You 
cannot, frankly, adequately oversee a contract unless you know 
what it is you are actually acquiring, what you want, and how 
much it is going to cost. And it is still unresolved. Can you 
address that, Ms. McNall? Why is this so hard to figure out 
what you want and what it is going to cost?
    Ms. McNall. Yes, ma'am. Actually, let me explain a little 
bit about the training process. It is a very dynamic situation. 
The piece that is actually in many ways the easiest, and if I 
do a new contract it is easy enough that I am even thinking 
maybe we can fix price to work, is when we hire controllers, we 
bring them to the Academy and they provide a very basic FAA air 
traffic controller training, all right. That is the first step 
of the training process. That, at least I know I am hiring X-
number of people. They are going to come into a class and the 
class is going to be conducted roughly like this, absent any 
training innovations.
    From there, they go to an air traffic control facility, all 
right, and they are going to get some additional training at 
that facility. This is where it becomes a very dynamic 
situation. Although we know we have a bow wave of retirements 
coming, because we have a mandatory age cap by which 
controllers must retire, and as you know, we had to hire a 
great number of controllers all at one particular point in 
time, which means they are more or less going to be retiring at 
the same time--because of that, we know we need to hire a lot. 
We know we have to train a lot.
    But I do not know ahead of time which specific controller 
is going to retire at which specific facility and what position 
that controller is on. For the FAA air traffic controller 
training, it has to be, when you get to the facility level, 
unique not only to that facility, but unique to that particular 
position that the controller is on. We predict as best we can, 
and we have developed a training tool with Raytheon that we 
have implemented with our field that now involves a rolling 
process that we know with a fairly good place, at least 30 days 
ahead, 60 days ahead, and 90 days ahead, what we think that 
training will be that we can then pinpoint and identify.
    Once the controller candidate, so to speak, graduates and 
changes that applies not only to new trainees, that applies to 
existing controllers who may need to be trained. If they are 
going to change positions, they need to be trained for the new 
position to which they are going to move. If they are going to 
change facilities, they need training for that new facility as 
well as the new position on which they are going to be.
    At that point, the FAA takes over the training and we use 
our professional air traffic controllers to provide on-the-job 
training. On-the-job training accounts for about 75 percent of 
the total amount of training that our controllers go through. 
In fact, that is the majority of the cost of our training 
program.
    Senator McCaskill. And how much is that training costing 
you?
    Ms. McNall. We provided some figures for the Committee and 
I can look it up again, but total cost is around $250,000 per 
controller, approximately. That is total cost of both our 
contractor training and our own employee training.
    Senator McCaskill. So, 75 percent of that is your 
employees?
    Ms. McNall. Or more, yes.
    Senator McCaskill. OK. So, you are saying that 75 percent 
of $250,000 is being done by your folks.
    Ms. McNall. In fact, I can provide that for the record, if 
you like. I do have some figures with me I can go through with 
you, if you like, on what our labor costs are for our employees 
to train you.
    Senator McCaskill. OK. I will come back to this on the 
second round because I need to talk to my staff, because we 
discussed this and this is the first I have heard this number 
and I want to go through it with them while Mr. Johnson is 
questioning you.
    Ms. McNall. Mm-hmm.
    Senator McCaskill. Why in the world would you go from 4,000 
to 5,620 in the first year? How could the contract be that far 
off that soon, that close to the beginning of the contract?
    Ms. McNall. Yes, ma'am. Actually, we do not agree with that 
5,600 number. I understand exactly where the number came from, 
or at least we think we do, but we cannot match it with our own 
records. The contract provided that the controller would, for 
each year, need to train about 4,000 controllers, and it said, 
plus or minus 10 percent.
    Senator McCaskill. Right.
    Ms. McNall. We do agree the number was higher, and by our 
calculations was around 4,500 to 4,600. I think, and doing it 
wrong. It is different data systems that collect the data that 
I think is helping lead to why there is a bit of a difference--
--
    Senator McCaskill. OK. Wait. Let us back up here.
    Ms. McNall. Mm-hmm.
    Senator McCaskill. So, you are telling me that you are 
paying for training for these people and you are not even sure 
and cannot articulate why the IG would say there was 5,620 and 
you are saying there was 4,500?
    Ms. McNall. No, I can definitely articulate that. The 5,600 
was Raytheon's number, which we believe includes all people 
initially put into the class, whether or not they graduated 
from the class or washed out. It includes training that we 
would otherwise not necessarily have counted, all right. So----
    Senator McCaskill. Well, why did you pay them for it, then?
    Ms. McNall. Oh, one thing, it is a cost reimbursement 
contract and we treated it like a level of effort contract, and 
the way we should have is basically a performance-based 
contract. But they were successful in training this number of 
personnel, and we do agree--they did put in a request for 
equitable adjustment and at the end, we agreed they did train 
more than we expected. So, if you take the plus 10 or minus 10 
percent, that makes 4,400 at the op side. We do agree they 
trained at least 4,500 to 4,600.
    In addition, they had to do different kinds of training. 
There is a separate requirement which says that we can only 
vary by 3 percent the different categories of training and we 
varied more than that. So, some of the technology training was 
increased. Some of the training for controllers that are 
already trained but now need to be trained for new positions, 
that was higher than we anticipated, as well.
    Senator McCaskill. OK. So, you thought the most you were 
going to pay for was 4,500. You paid for 5,600, correct?
    Ms. McNall. I would----
    Senator McCaskill. Is that correct, Ms. Langan-Feirson, 
that they paid for 5,600 the first year?
    Ms. Langan-Feirson. The numbers that we have are that FAA 
underestimated the number of controllers by 41 percent. There 
were 5,620 developmentals rather than 4,000 that was in the 
solicitation.
    Senator McCaskill. OK. So, here is the problem. You are 
paying a thousand over. Forty percent is the figure that they 
are using.
    Ms. McNall. Right.
    Senator McCaskill. And what happened when that occurred? 
Were there alarm bells that rang? Did everybody get together 
and say, we have to look at this contract, we have to change 
some things and we have to figure out what our number is for 
next year, and so the next year, it got better?
    Ms. McNall. Yes, ma'am, we did----
    Senator McCaskill. No, it did not. You still had major cost 
overruns the next year.
    Ms. McNall. Yes, we did, but the cost runs were less, not 
nearly--do not get me wrong, the cost overruns were still 
present and they were present for the third year, as well, and 
I am horrified by that, as well, all right. But, we started a 
positive trend, all right. We got our controls. I will tell 
you, honestly, the first 3 years of the contract, management in 
particular were very troubling. The fourth year, we got better. 
That is why I am saying we succeeded in our most important 
goal, which is getting air traffic controllers trained as 
needed and providing the quality of training that was needed. 
The problem was the cost control----
    Senator McCaskill. Well, I think, there, the issue is 
that--even in this testimony today, there does not seem to be a 
clear explanation that can be articulated between the 
difference in what you contracted for and what you paid for, 
and it does not even appear that you agree that they were 
training--that they should have been training all the people 
they were training, based on the testimony you have just given, 
that they were doing training you did not even anticipate them 
doing.
    And so you say it was a lot different in the second year, 
but my recollection is the first year, it was $40 million 
over--or $20 million over?
    Ms. McNall. No, 20 over.
    Senator McCaskill. The first year 20 over, and then the 
second year, was it not 20 over again?
    Ms. McNall. Not quite.
    Senator McCaskill. It was $29 million the first year and 
$31 million the second year.
    Ms. McNall. I will be happy to double-check those numbers 
for you, with you and confirm back. The issue we had that was--
keep in mind, the difference between a level of effort contract 
or our contract where I am paying per controller, which was an 
idea we originally contemplated, but the IG appropriately 
pointed out to us would not be appropriate, it is a 
performance-based contract. So, we are not training per 
controller. We are training the volume of controls, whatever 
that amount might be, so long as it is within 10 percent of 
4,000, right. Above that, we recognize, yes, where the contract 
is entitled to an equitable adjustment, as well as if the mix 
changes of controllers beyond what we anticipated, and we 
agreed, that mix also did change. It did entitle the contractor 
to an equitable adjustment.
    One of the things we did that first year, for example, on 
the incentive fee, they only got their minimum fee. They got 
nothing more than that.
    Senator McCaskill. OK. All right. Let me let Senator 
Johnson ask, and then I will come back and followup.
    Ms. McNall. Mm-hmm.
    Senator Johnson. Let me use a little accounting lingo here. 
You have a price variance and you have a----
    Ms. McNall. Yes.
    Senator Johnson [continuing]. A volume variance. It sounds 
to me like the problem with the contract was a volume variance. 
You had to train more air traffic controllers, is that 
accurate?
    Ms. McNall. That is largely accurate, and the only reason 
why I am hesitating at all is one of the things the FAA did was 
require this contractor to mirror the level of services being 
provided by the prior contractor without first evaluating, were 
all of those services the prior contractor had providing 
needed. We just told the contractor, go out, every facility at 
which our prior contractor was at, provide at least that amount 
of staffing. While we were running the procurement, which in 
this case was a little bit longer process than normal, that 
prior contractor was continuing to expand the sites at which 
they were present and providing training. In fact, that grew, 
although it was known within the agency----
    Senator Johnson. So, you had training overlap between two 
contractors, which----
    Ms. McNall. Yes.
    Senator Johnson. OK.
    Ms. McNall. Three contractors, in fact, since we were 
replacing----
    Senator Johnson. Let us just back up----
    Ms. McNall. Right.
    Senator Johnson [continuing]. Because, I mean, I am new to 
this whole issue. Can you give me a little bit of history of 
training in the air traffic control system? For example, after 
the professional air traffic controllers organization (PATCO) 
strike, we had to hire a lot of people. We had to train a lot 
of people.
    Ms. McNall. That, we did.
    Senator Johnson. Was that done internally, on-the-job 
training? Was that done with an outside contractor?
    Ms. McNall. It was done with the help of an outside 
contractor, just as it is today. For approximately 20 years 
before this contract, all right, we started off with training 
at our Academy in Oklahoma City. The Academy in Oklahoma City 
contracts, and at that point, they were contracting with 
Oklahoma University to provide training at the Academy. So, 
that was the starting point. That was the same up until we 
competed and Raytheon won the contract.
    Senator Johnson. So, prior to that, you were actually 
contracting with a university to do the training?
    Ms. McNall. Yes, at FAA's facilities. So, it is not like we 
were sending them to college or university.
    Senator Johnson. Who would be the other potential 
competitors for this contract, other universities? Other 
private sector businesses?
    Ms. McNall. Yes to both, because Oklahoma University was 
only providing Academy training, which was sort of the initial 
basics course at this one facility. We hired potential air 
traffic controllers. They take a test so we can determine, are 
they likely to be good air traffic controller candidates. If 
they pass that test, we hire them. We send them to the Academy 
to begin their training.
    From there, we send them to the facilities where we think 
we are going to need the personnel, all right. Again, that is 
an estimate, because we do not know exactly who is going to 
retire when. But, based on statistics and historical patterns--
--
    Senator Johnson. OK.
    Ms. McNall [continuing]. We do our best guess. At the 
field, a private sector contractor takes over, historically, a 
separate contractor. It was a small business company, 
Washington Consulting Group, held that contract for many years.
    Senator Johnson. How many different air traffic control 
positions are there? I mean, how many different classifications 
of air traffic controllers are you training for, approximately?
    Ms. McNall. I----
    Senator Johnson. I mean, is there just one kind of air 
traffic controller, or----
    Ms. McNall. No.
    Senator Johnson [continuing]. Are there 10? Are there 30?
    Ms. McNall. No. The reason I am hesitating--I will promise 
I will get back to you for the record with a better answer. I 
can tell you that we have over 15 levels of facilities, so that 
is----
    Senator Johnson. That was my next question.
    Ms. McNall. OK.
    Senator Johnson. OK. So you have 15 different types of 
facilities.
    Ms. McNall. No, 15 levels. OK. I will back up a little bit 
further.
    Senator Johnson. Because, then I was going to say, 
different types of equipment configurations. I am trying to 
get----
    Ms. McNall. Right.
    Senator Johnson [continuing]. My arms around the complexity 
of the training situation.
    Ms. McNall. Yes. Absolutely.
    Senator Johnson. You have different sized airports----
    Ms. McNall. Different sizes of facility.
    Senator Johnson [continuing]. Different sized towers, 
different equipment configuration, you have different----
    Ms. McNall. And not just towers, sir, if I may, 
respectfully.
    Senator Johnson. OK.
    Ms. McNall. Right. We have towers. Then we have what are 
called Terminal Radar Control Facilities. They may or may not 
be located where the tower is. And then we have 22 route 
facilities across the country that handle air traffic. They 
basically handle different volumes of air traffic.
    So, not only do we have the difference in facility size and 
the difference in equipment, the layout, et cetera, we also 
have different positions in that facility. So, one controller, 
for example, will only handle arriving air traffic. Another 
controller will handle only departing air traffic. Another 
controller will be watching, generally, out for field----
    Senator Johnson. OK. So, let us go back. A number of 
different types of towers.
    Ms. McNall. Yes.
    Senator Johnson. Are they all the same, or are there 
different configurations of that?
    Ms. McNall. They are all----
    Senator Johnson. Pardon?
    Ms. McNall. They have very different configurations.
    Senator Johnson. So, how many different configurations, 
approximately? I mean, are you talking about 100 different 
configurations? I mean, is each one----
    Ms. McNall. Each----
    Senator Johnson [continuing]. Totally separate, totally 
unique?
    Ms. McNall. We have tried to standard the physical layout 
of the towers, but the physical layout of each airport tends to 
be a little bit different, which means there are changes for 
each airport, accordingly, right. If there is a mountain here, 
if there is a cliff there, right, that is going to alter the 
procedure. The air routes that the controllers have to guide 
the pilots along, those vary, as well.
    Senator Johnson. OK.
    Ms. McNall. And, in fact, we have a variety of different 
air routes that go into any one facility. In fact, and then 
what air route can be used depends on the equipage of the 
aircraft, and the controller has to know and visualize within 
their mind not only where is that aircraft, but which route can 
I give this aircraft based on the training of the pilot from 
that aircraft as well as the equipage onboard the aircraft.
    Senator Johnson. OK. So, the bottom line here, without 
getting----
    Ms. McNall. Mm-hmm.
    Senator Johnson [continuing]. Spend a lot of time on the 
detail, which I----
    Ms. McNall. Sorry.
    Senator Johnson [continuing]. Would be glad to get into at 
some point in time, but the bottom line is there is a great 
deal of complexity----
    Ms. McNall. Yes.
    Senator Johnson [continuing]. In trying to anticipate over 
a 10-year contract what those training requirements are going 
to be.
    Ms. McNall. Exactly.
    Senator Johnson. Is that at the core? And I will ask all 
three of you to comment, because, to me, just writing down, 
well, you have to define the training requirements, well, yes, 
of course.
    Ms. McNall. Right.
    Senator Johnson. But then, all of a sudden, you realize, 
defining the training requirements is unbelievably complex and 
it is very hard to anticipate. I mean, is that-----
    Ms. McNall. You are absolutely right, Senator.
    Senator Johnson. Does anybody want to disagree with that?
    Ms. Langan-Feirson. I would say----
    Senator Johnson. Or chime in?
    Ms. Langan-Feirson. I would agree. It is a very complex 
task. I would also say that the FAA has been training 
controllers for a very long time and it is a very important 
task.
    Senator Johnson. Ms. Dugle.
    Ms. Dugle. And all I would answer is that one of the steps 
that we have taken is to actually create a very simple tool, 
but a very powerful tool, that takes that complexity, 
decomposes it, puts it into an automated spreadsheet where all 
of our then-onsite trainers--we talked about coming from 
headquarters predicting and scheduling training out onto the 
site. We then take that each month, analyze 30 days of history, 
we look at our current 30 days, and then we do the forward 
planning that----
    Senator Johnson. So, Raytheon does its 10 to 25 percent--I 
am looking at 25,000 versus 250 and I am saying that is 10----
    Ms. Dugle. Yes----
    Senator Johnson [continuing]. But somewhere in that 10 to 
25 percent of the training, you do that on the very front end 
and then----
    Ms. Dugle. We do that now on a continuous basis.
    Senator Johnson. But, I mean, in terms of the cycle of an 
air traffic controller. I mean, are you primarily handling the 
first year of training of an individual, and then it gets 
turned over to on-the-job training with FAA personnel?
    Ms. Dugle. It would be approximately a year. So, we do the 
Academy training. We then do the onsite training and then we 
transition to the FAA for the actual on-the-job training. So, 
we handle two of the three components.
    Senator Johnson. So, we can criticize the FAA for not 
having defined this training requirement. How critical are you 
of that? I mean, are you actually pretty sympathetic with the 
complexity of it, or do you think there could be just a far 
better job, even within the complexity, that we can always do a 
better job, but----
    Ms. Dugle. I think we can always do a better job. What I 
will say, this program came under my responsibility in April 
and I became a student of air traffic control training. I never 
had any appreciation for the level of complexity. So, you have 
the individual component----
    Senator Johnson. Are you asking for reassignment yet, or--
--
    Ms. Dugle. Yes, that is right. [Laughter.]
    Ms. Dugle. I do not think I could pass the training, quite 
frankly. But when you put the variables--and I am from an 
engineering background, right, so to get a consistent answer, I 
have to have so many known variables in an equation. When I put 
in the personal talents, we screen candidates coming in, but 
this is a very complicated job. Not everyone can do it. Then we 
have all the factors that Pat talked about. So, I am----
    Senator Johnson. Let me go over time just a little bit, 
just because this ties in. How much remedial training are you 
on the front end having to do just because the applicants 
coming in, yes, they have a degree, but there are just 
deficiencies and you have to bring people up to speed in terms 
of whatever our education system should have done?
    Ms. Dugle. So, probably the best factual indicator of that 
is our fallout rate. When we assumed responsibility for 
training, that failure rate was 29.5. Over the time period, we 
have reduced that to 17 percent. I think in this kind of 
training, you would always run in some level of double-digits 
because you just absolutely cannot screen all the temporal and 
visual talent.
    Senator Johnson. So, the reduction really is better 
screening, better application process, better hiring 
procedures, and that would be----
    Ms. Dugle. Well, and----
    Senator Johnson [continuing]. On your part or on FAA's 
part?
    Ms. Dugle. And on our ownership, constantly improving that 
training, right, modernizing the techniques so that people are 
better able to digest and retain knowledge.
    Senator Johnson. OK. Thank you. Sorry for going over.
    Senator McCaskill. No, it is no problem.
    Ms. McNall, the $250,000 figure that you cited in your 
testimony a few minutes ago, that is the first we have ever 
heard that number.
    Ms. McNall. I apologize.
    Senator McCaskill. Well, you know, we have been at this 
since 2010.
    Ms. McNall. Yes.
    Senator McCaskill. I have been writing letters. We have 
been trying to communicate with you and your agency. Now, we 
got some spreadsheets, finally, on Friday----
    Ms. McNall. Yes.
    Senator McCaskill. and Ms. Langan-Feirson, I am not even 
sure if you have seen these, but we have on Friday, you finally 
gave us some information that says your Air Traffic Training 
Detail for fiscal year 2012 is $359 million, is that correct?
    Ms. McNall. I believe that would be for the--if that is the 
sheet that shows the cost of FAA providing the training, I do 
not believe that sheet necessarily includes the contractor 
training.
    Senator McCaskill. You do not know whether it does or does 
not?
    Ms. McNall. I hate to put it this way. I am trying to--from 
that sheet, that would be FAA cost only.
    Senator McCaskill. This is FAA costs only?
    Ms. McNall. Yes.
    Senator McCaskill. OK. And is there a reason why this was 
unavailable to us for years and we got it the Friday before the 
hearing? Would you not have this available?
    Ms. McNall. We do have that available. We have had that 
information available. I am sorry I did not know, at least 
personally. I, too, only joined this job fairly--well, 2011. 
Anyway, I did not know that you wanted that data, but, of 
course, we will be happy to provide that data-----
    Senator McCaskill. Well, let me just explain what we are 
trying to do here.
    Ms. McNall. Yes.
    Senator McCaskill. We are trying to figure out if you know 
what this costs.
    Ms. McNall. Yes, ma'am.
    Senator McCaskill. And we are trying to figure out if you 
know what it is you are buying.
    Ms. McNall. Yes.
    Senator McCaskill. I get that what you are doing is 
complicated.
    Ms. McNall. Yes.
    Senator McCaskill. But, at the end of the day, acquisition 
is about the people who know what they need buying it and 
having some idea what it costs.
    Ms. McNall. Absolutely.
    Senator McCaskill. So, you understand my concern that we 
would have two IG reports and we would have a lot of criticism 
about cost overruns, and for the first time at this hearing, we 
finally hear a figure about what you think it costs to train 
someone to be a functioning, well-informed, well-trained air 
controller, and the Friday before the hearing, we finally get 
numbers--do you have these numbers, Ms. Langan-Feirson?
    Ms. Langan-Feirson. No, I do not.
    Senator McCaskill. Have you tried to get these numbers?
    Ms. Langan-Feirson. In our report, we have--those--I do not 
know what those numbers are, but in our report, basically, one 
of the findings that we have is that the FAA is responsible for 
the on-the-job training. Raytheon is responsible for the 
Academy training and the developmental training, and then they 
get handed off for on-the-job.
    Senator McCaskill. Right.
    Ms. Langan-Feirson. The point is that the contract costs 
are under the contract and there are other costs that the FAA 
incurs to train an air traffic controller. You need to put 
those two together to get the total cost.
    Senator McCaskill. Absolutely.
    Ms. Langan-Feirson. And when we went into the field and we 
interviewed people in the field, we asked them whether they 
were capturing the costs for kind of the off-loading of the 
courses that Raytheon could not train because they ran up 
against the cost ceilings, were those being captured, those 
costs that the controllers were basically----
    Senator McCaskill. Absorbing.
    Ms. Langan-Feirson. They were self-performing and 
absorbing.
    Senator McCaskill. Right.
    Ms. Langan-Feirson. And we do not think that they are. We 
know that the FAA is basically capturing what they call OJT 
costs, which those probably are, but we did not see accounting 
codes that would then differentiate and kind of pull out those 
costs that were being self-performed that should have been 
performed our would have previously been performed under the 
Raytheon contract.
    Senator McCaskill. So, the issue here is this. Complicated 
training, but this is to try to simplify the problem we have. 
They cannot train, under the contract they have been given, do 
as much work as they need to be doing. You ran out of money. 
You had to start the option early, because you guys ran out of 
money, and you have cut staff by, what, 30 percent, that are 
doing the training?
    Ms. Dugle. At various points in the contract.
    Senator McCaskill. Yes. Well, you have had to cut staff 
because there is not enough money. So, that means that the 
agency is absorbing the costs of doing some of the training 
that Raytheon is not doing now. So, if you are going to 
recompete this contract, you cannot do it unless you figure out 
what everything costs----
    Ms. McNall. Right.
    Senator McCaskill [continuing]. And have any hope that the 
amount you are paying for the contract is the right number. 
That is my sense of urgency here. I am very respectful that 
this is hard. But if you are not even attempting to capture 
your costs that you are absorbing because the contract amount 
is clearly not correct, then all we are going to have is more 
of this ad nauseam in the future until you figure that out.
    So, is the $250,000 number one I can bank on at this 
hearing? Is that the number it costs to adequately train air 
controllers in the FAA?
    Ms. McNall. That is our best calculation. It is an average 
figure. Keep in mind, individual controllers----
    Senator McCaskill. And that includes both Raytheon money 
and the money that the agency is spending?
    Ms. McNall. Yes. In addition, if I may, one of the points, 
as the Inspector General pointed out, was the importance of us 
tracking costs that our controllers are incurring, particularly 
if they are going to pick up training that Raytheon otherwise 
could have performed, right. That sheet that we provided you 
has different categories of training put on it. One of those 
categories is on-the-job training, which is the type of 
training that the FAA controllers have always done. That is 
work that Raytheon has never done, and, frankly, it is our 
anticipation no contractor would be doing, right.
    Senator McCaskill. Right.
    Ms. McNall. That is the last step, right.
    Senator McCaskill. Of course.
    Ms. McNall. You will also see a category in there called 
``Proficiency Training.'' That is a type of training that 
Raytheon has historically performed. That is a type of training 
that we have moved in-house, and there are a number of very 
good reasons that I will be happy to go into if you like, but 
you will see that we are tracking that cost.
    Another cost is called ``Training, Other.'' It is under a 
``Training, Other'' category that we track the time our 
controllers spend providing training that otherwise would have 
been done by Raytheon, all right. So, we are tracking all those 
types of costs.
    The other item that the Inspector General quite rightly 
brought up was the potential of overtime. We are continuing to 
track overtime to see if there is any increase or decrease. 
And, in fact, our overtime cost had been, overall, decreasing, 
and it is less than 1.7 percent currently.
    So, yes, I fully agree with the Chairman. It is very 
critical that we have a good understanding of our cost and what 
is the right mix to be using between our--when we use a 
contractor or when we are using our own personnel, along with 
what is the right capability and skills that are involved. So, 
that is engaged. We are keenly watching that.
    One of the processes that we have changed since the ATCOTS 
contract was originally awarded was starting to bring the types 
of tools--and I apologize for going on--but beginning with the 
types of tools that we have historically used when making 
capital investments or information technology acquisitions to 
our service contracts so that we can do that by alternatives 
analysis.
    Senator McCaskill. Well, that would be--yes, and here is 
the thing. My colleague, who I have a great respect for because 
I think that he would agree with me, it would be a good idea if 
every member of the Senate has had to make a payroll, it would 
be a great requirement for this job, because I guarantee you, 
if you were a private business, you would have figured out 
these costs before you had cost overruns of $89 million over a 
period of just a few years. You would have figured it out. You 
would have figured out whether or not it was cheaper or more 
expensive to have Raytheon be doing this and asking for 
increased contract amounts or whether it is more expensive for 
the government to be doing it.
    To be honest, Ms. McNall, I think you are just now getting 
your arms around that. I think you went years thinking it was 
not that big of deal, and I think that is why we are here, 
because I think if you thought it was that big of deal, you 
would not have had this same major finding in an audit 2 years 
after the first one, and that is what brought us here today. I 
did not know how else to get your attention, because it felt 
like, to me, that you guys thought we were just bothering you, 
and if you just held on long enough, we would go away.
    I can assure you, I am not going away. We are going to get 
this fixed. And when you recompete this contract, I am going to 
be on it like a rabid dog, watching how this works, whether or 
not you have finally figured out what you need and what it 
should cost, and whether it is more cost effective to do some 
of it in-house and more of it through Raytheon or another 
contractor, whether you have the right mix, most of all, if you 
understand what each different potential would cost, and that 
is what I think really has been lacking.
    I have a few more followups, but I have gone over and I 
want to turn it over to Mr. Johnson.
    Senator Johnson. Apparently, we have a vote called, so I 
will keep this pretty short, but just really second what the 
Chairman has said. It is about information. It is about being 
able to have the tools and being able to make that evaluation 
as to whether or not it is better to do it in-house versus hire 
an outside contractor and who the different contractors are.
    Ms. McNall. Right.
    Senator Johnson. And this is going to just get more complex 
as you move on to more technology. From my standpoint, I would 
think moving forward with technology, particularly in an area 
like air traffic control--I mean, I have watched my son do in-
flight simulators, amazed at the technology there. So, I would 
think, being a real supporter of the private sector and the 
innovation of the private sector, I would think the private 
sector would probably be a little more nimble and be able to 
bring some real technological advancements to the training 
process to actually improve quality, which, by the way, that 
has got to be the first consideration--quality, safety. That is 
the first. I am concerned about cost, but, boy, we do not want 
to compromise quality and safety at all.
    But really taking a look at technology, and only with the 
information, really understanding what the true internal costs 
are in it, and I recognize that can sometimes be difficult to 
ascertain, but it all depends on how complex it is in terms of 
the use of personnel.
    So, let me quickly ask that question. Do you have full-time 
trainers within the FAA? Is that their entire task? Or is this 
also where people have split duties, where they are air traffic 
controllers at some point in time and--I mean, is just 
gathering that information also complex, or is it just that 
there has not really been the desire within the agency to 
really make a real push on getting the information?
    Ms. McNall. So, within the agency, we track the time of all 
of our personnel, including our air traffic controllers, which 
is then allocated to a particular cost code. That is one of the 
things the Inspector General----
    Senator Johnson. So, you should really have very accurate 
information in terms of really what the training costs would be 
internally.
    Ms. McNall. And that is the information we have now 
provided to the Committee.
    Senator Johnson. OK. And, again, so you are saying it is 
about $250,000, add to that about $25,000----
    Ms. McNall. The $25,000 includes the contractor cost as 
well as the FAA employee cost.
    Senator Johnson. OK. So, it is $225,000 plus about $25,000.
    Ms. McNall. Right.
    Senator Johnson. I mean----
    Ms. McNall. Keep in mind, it, generally speaking, takes 
about 2\1/2\ years to train a controller.
    Senator Johnson. Right.
    Ms. McNall. That will include the training cost of the 
controller who is being trained. Their salaries are also in 
that----
    Senator Johnson. So, to me, the metric--but even then, what 
is the differentiation between full training of a raw recruit 
versus refresher? Do you have some sort of sense of that 
breakout?
    Ms. McNall. Mm-hmm.
    Senator Johnson. I mean, how much are your training costs 
in your annual budget, if it is $360,000--$360 million, how 
much of that is refresher versus brand new?
    Ms. McNall. So, that is a very shifting number. In fact, 
that was one of the changes, again, that we had not--I hate to 
go back, but if we go back to the length of time to train and 
why that did not improve, the year 2009 was an anomaly, and one 
of the reasons that was an anomaly is because the proportion of 
that training mix was fewer raw recruits and more training of 
actual controllers in place, which is a shorter period of time, 
so----
    Senator Johnson. OK. So, are you tracking it--as long as we 
have this----
    Ms. McNall. But we track it all.
    Senator Johnson [continuing]. The tracking code----
    Ms. McNall. Yes.
    Senator Johnson [continuing]. So you should be able to say, 
this training was done for refresher. This training was done on 
new recruits----
    Ms. McNall. Exactly.
    Senator Johnson. OK. So, my bottom line, and we have to go 
to a vote, is the development of better information, not just 
for the sake of getting information, but actually targeted, and 
then working with the contractor to actually hone in on what--
because it may be a more lucrative contract to Raytheon but 
save the government money. The total value proposition here is 
what we are after.
    Ms. McNall. Yes.
    Senator Johnson. But, you need the information. So, again, 
I just want to second what the Chairman was talking about, is 
the desire and the need for accurate information--because, 
again, reading through the Inspector General's report, I just 
had a lot of questions, and there should not be. I mean, we 
should really have in a management information system the kind 
of detailed information that would just really point us in the 
direction of how we should manage this training----
    Ms. McNall. Absolutely.
    Senator Johnson [continuing]. Because it is crucial.
    But, with that, I will finish my questioning remarks. Thank 
you.
    Senator McCaskill. And we have votes.
    Senator Johnson. Yes. We have time here.
    Senator McCaskill. So, I have a little bit more. I would 
ask your forbearance. I am going to run over, vote, and come 
back. I want to talk about the award fees. It is a thing that I 
care about. I have done this, and by the way, you should talk 
to the folks at DOD on award fees and performance fees--
Raytheon knows I have been on this--about how we do this and 
whether or not we are using them as the tools they should be 
used, and a few other questions. So I am going to run, vote, 
and come back. It should be 10 to 15 minutes at the max. Thank 
you.
    Senator Johnson. She is letting you off the hook. Thank you 
all. [Recess.]
    Senator McCaskill. I am so sorry. I will tell you, though, 
it is not lost on me that I sit up here and rail against 
government agencies for being inefficient and ineffective and I 
am a member of the U.S. Congress. I just want you to know, I 
get the joke. [Laughter.]
    This is one of those days that I feel that in a painful 
way, that this is an ineffective and inefficient Congress.
    Let me go through just a few more things I want to make 
sure we get on the record before we close today, and I do not 
have--we have covered most of it. Who would you say is in 
charge of this program?
    Ms. McNall. So, the person----
    Senator McCaskill. You need to turn your microphone on.
    Ms. McNall. So, we have a program manager who works within 
the Air Traffic Organization who is in charge of the program. 
That person reports directly to the Air Traffic Vice President 
for Safety and Technical Training.
    Senator McCaskill. Is there an Air Traffic President?
    Ms. McNall. There is an Air Traffic Chief Operating 
Officer.
    Senator McCaskill. But then there is a Vice President?
    Ms. McNall. There are several Vice Presidents.
    Senator McCaskill. Weird.
    Ms. McNall. We are a little bit of a different agency.
    Senator McCaskill. That is weird. We do not have Vice 
Presidents in government unless his name is Biden. [Laughter.]
    We have it in private companies, but we do not have it 
typically in agencies. So, you would say that the Vice 
President is the person who ultimately has the responsibility 
for the effective operation of this program and the effective 
use of contracts in support of this function?
    Ms. McNall. He is the one responsible for seeing that air 
traffic controller training is done effectively and 
efficiently. I am the one who is responsible for seeing that 
the contracts he needs to accomplish that are done 
appropriately.
    Senator McCaskill. OK. Who do both of you report to, in 
common?
    Ms. McNall. The Administrator.
    Senator McCaskill. So, the boss of this program is really 
Huerta----
    Ms. McNall. Always.
    Senator McCaskill [continuing]. Because you have one on the 
programming side, one on the acquisition side, and the only 
time the two of you meet is at the very top.
    Ms. McNall. From an organizational perspective. Now, of 
course, I meet with the Vice President at least monthly, and 
then I have a variety of oversight processes----
    Senator McCaskill. But you do not work for him.
    Ms. McNall. No, I do not.
    Senator McCaskill. And he does not work for you.
    Ms. McNall. Correct.
    Senator McCaskill. So, I am trying--I have learned----
    Ms. McNall. You are right.
    Senator McCaskill. I have learned the hard way that if you 
do not figure out who is in charge, the chances of you getting 
something fixed go down exponentially. So, you are telling me 
that, ultimately, if he is not doing his job or you are not 
doing your job, the only person who can make you accountable 
is, in fact, Administrator Huerta.
    Ms. McNall. That would be correct.
    Senator McCaskill. OK. Let us talk about award and 
incentive fees. What is your understanding of what the 
contractor had to do to get what I think most Americans would 
call bonuses?
    Ms. McNall. Yes. What the contractors had to do to achieve 
both its incentive fee and its award fee has varied over the 
period of the contract.
    Senator McCaskill. What was the first bonus and incentive 
fee they got?
    Ms. McNall. Right. So, in the first year of the contract, 
we established a target cost, right. The share ratio on that 
target was 50/50. So, for each dollar that the contractor 
incurred above that target cost, reduced his fee by 50 percent. 
Each dollar below that target cost reduced that fee by 50 
percent. That first year, because of the cost overruns--up to a 
min and max in each case. So, at some point, the fee that he 
can add to that target is limited, and the same thing at the 
top. As cost growth, he gets a minimum fee.
    The first year, the contractor ended up with the minimum 
fee. The same----
    Senator McCaskill. Wait a minute.
    Ms. McNall. Mm-hmm.
    Senator McCaskill. So, he did get the fee that was supposed 
to be incentivizing costs?
    Ms. McNall. He got the smallest amount of fee possible 
under the----
    Senator McCaskill. And how much was that?
    Ms. McNall [continuing]. Contract. Roughly $1.5 million.
    Senator McCaskill. OK. So, he got $1.5 million in a year 
that the cost overruns were $31 million.
    Ms. McNall. Yes.
    Senator McCaskill. Why did he get anything?
    Ms. McNall. When we bid the contract, and this is one thing 
that is always done when you are bidding a cost plus incentive 
fee contract, is--at least in best practices--you allow the 
companies to propose back to the government what that target 
ratio should be, and then what the minimum and maximum fees 
should be, and that--you then pick on what you think is the 
best value for the government. In this----
    Senator McCaskill. Well, how can it be a value for the 
government if the cost overruns are $31 million and we still 
give them money for doing a good job on cost? Do you understand 
that sounds weird?
    Ms. McNall. I absolutely understand that sounds weird. It 
was a very small fee for the amount of work done, and the 
contractor was successful in performing the contract. I fully 
understand, right, this was not a controlled cost. I have other 
contracts where the contractor will bid and we will agree and 
write into the contract, there is no minimum fee, but that was 
not this contract.
    Senator McCaskill. OK. The FAA's award fee contracting 
guideline----
    Ms. McNall. Yes.
    Senator McCaskill [continuing]. Says no performance element 
should be incentivized more than once.
    Ms. McNall. Correct.
    Senator McCaskill. That is exactly what you did when you 
offered Raytheon an incentive fee and an award fee for 
containing costs. Why did that happen?
    Ms. McNall. In all honestly, I was not in this job at the 
time that happened, in their first years of the contract, so I 
cannot tell you exactly what that happened, other than the fact 
that the agency at that point was very interested in 
controlling cost. As you pointed out, we were incurring cost 
growth and we wanted to bring it under control.
    Senator McCaskill. So, there were $14 million in the first 
4 years of the contract in incentive and award fees. Is that a 
correct figure?
    Ms. McNall. Excuse me just a moment. [Pause.]
    Seventeen million in incentive fee and--but more than that 
in the award fee.
    Senator McCaskill. Can you help----
    Ms. McNall. Of course, that is going through the first 5 
years.
    Senator McCaskill. That is 5 years.
    Ms. McNall. We will be happy to get back to you.
    Ms. Langan-Feirson. During the base period, there were $14 
million in cost incentives and approximately $17 million in 
award fees----
    Ms. McNall. Yes.
    Ms. Langan-Feirson [continuing]. For a total of $31 
million.
    Senator McCaskill. OK. Thirty-one million. And during that 
same period of time, what were the cost overruns?
    Ms. Langan-Feirson. The cost overruns were $89 million.
    Senator McCaskill. OK. So, we had cost overruns of $89 
million and we had two fees that were supposed to be 
incentivizing costs--two incentive and award fees incentivizing 
costs and they got $31 million.
    Ms. McNall. That is correct. The award fee incentivized 
more than simply cost control.
    Senator McCaskill. What else did it incentivize?
    Ms. McNall. It incentivized, basically, performance of the 
contract. It successfully trained the controllers that we 
needed to have trained.
    Senator McCaskill. And what were the metrics on that?
    Ms. McNall. So, that is where the metrics varied for each 
performance period.
    Senator McCaskill. Who decided what the metrics were?
    Ms. McNall. So, the FAA did.
    Senator McCaskill. Well, I thought that Raytheon developed 
the performance metrics early in this contract, that the FAA 
did not do the performance metrics but, rather, they were drawn 
up by Raytheon.
    Ms. McNall. As part of the contract bidding process, each 
company bid metrics, proposed metrics, for the award fees. One 
of the reasons why we asked for them to bid the proposed 
metrics for the award fee was to see how well they understood 
what the contract was aiming for and how good they were at 
metrics development, which would give us a clue as to how good 
they might be at actually achieving those metrics. So, Raytheon 
bid proposed metrics. The FAA changed those metrics before we 
awarded the contract. But we did accept some of them, the basic 
underlying premise of them.
    Senator McCaskill. OK. So, you had a set of metrics before 
this contract was--before you had the competition on this 
contract, you had a set of metrics developed within FAA that 
you were going to measure a contractor by.
    Ms. McNall. In all honestly, again, I was not here at the 
time, so I do not know that we had those metrics prepared. I 
can tell you, I guess, that we did allow the offerors to bid 
proposed metrics to us, and that in this case, before we 
awarded the contract to Raytheon, we accepted some of their 
metrics and we changed others and that is what went into the 
contract for the first award fee period. Thereafter, the agency 
established the award fee criteria.
    Senator McCaskill. All right. Do you believe that she has 
characterized this accurately, Ms. Langan-Feirson?
    Ms. Langan-Feirson. Senator, we had a great deal of 
difficulty going through the performance measures, because the 
performance measures on this contract varied from period to 
period. In the beginning, in our first report, it was reported 
that some of the performance measures, Raytheon was assisting 
with the development of the measure.
    But, I will tell you, in the second report, we did look at 
Award Fee Periods 5, 6, and 7 of the base contract and there 
were essentially four performance measures, two of them 
associated with cost, that were totally ineffective because the 
costs kept changing, and there was one associated with quality 
assurance which was relatively effective, and then there was 
the one about staffing efficiency that we put in the report----
    Senator McCaskill. Right.
    Ms. Langan-Feirson [continuing]. Which we did not find 
effective. So, we did not find that the award fee performance 
measures were very effective on the contract.
    Senator McCaskill. And the new fee structure, the new award 
fee structure after the exercise of the option, it is my 
understanding, Ms. Langan-Feirson, that your report--in looking 
at your report, you saw some conflict there. Could you talk 
about that?
    Ms. Langan-Feirson. There were five performance measures in 
the first period. We were only able to audit what is called 
Award Fee Period 8, which is the first performance period in 
the option, and there were basically five performance measures. 
It is the first one that was the most troubling to us, which 
basically required that Raytheon deliver the performance work 
State and the annual workplan requirements, but also stay 
within the cost target. If they did not do one or the other, 
they would fail. If they had an unsatisfactory, they would fail 
all of the other performance measures. So, while there might 
have been other performance measures that would have 
incentivized the contractor, those all went out the window if 
you achieved an unsatisfactory on either one.
    We also felt it was very troubling, because if you met the 
target cost, what essentially happened was you were not 
delivering enough training, and vice-versa. If you delivered 
enough training, you might not have been under the target cost. 
We did not think this was a very effective performance measure.
    Senator McCaskill. And that has got to be really hard for 
Raytheon, because you cannot do both. That is impossible with 
this contract, correct?
    Ms. Dugle. It is correct. What we are trying to do is 
optimize the value of every training dollar, but at some point, 
we are capped on the amount of training that we can deliver due 
to the constraints of the budget.
    If I may, Senator, I just wanted to clarify or expand upon 
one point that you made. It is obviously factual that Raytheon 
received approximately $31 million in fee over the time period.
    Senator McCaskill. In addition to cost-plus.
    Ms. Dugle. Well, that is the entire fee that we earned, and 
that is what I wanted to clarify, is that it was not a bonus on 
top of any kind of normal fee. It was simply those were the 
dollars that we earned on the work that we did. And I would 
make the point that, yes, the budget, we expended more than was 
budgeted, but we trained between 40 percent more students in 
year one and in net over the 4-year, 20 percent more students. 
And so it is a bit counterintuitive to say the contract was 
overrun and you are being paid fee, but you have to equate it 
back to the volume of students. Otherwise, it would be an 
unfair burden on a company.
    Since year one of this contract, each year, we sat down 
with the FAA. We target the amount trained and the dollars. And 
since that time, since year one and the 1.5 percent fee that 
Ms. McNall referenced, in years two, three, and four, we have 
hit our targets and we have delivered to those numbers. I bring 
that forward because we are improving progressively as we go 
and I just wanted to go on record that incentive and award fee 
is the only monies earned. It is not in addition to any other 
kind of base beyond the program.
    Senator McCaskill. OK; I am confused. So, I thought this 
was a cost-plus contract.
    Ms. Dugle. It is.
    Senator McCaskill. So, you get your costs plus a margin of 
profit.
    Ms. Dugle. We get our costs plus an incentive fee award and 
an award fee. Those comprise our fee.
    Senator McCaskill. So, both the incentive fee and the award 
fee are the only things that you are getting above your costs?
    Ms. Dugle. Yes, ma'am.
    Senator McCaskill. So, this is not a cost-plus-award 
contract. This is just a cost plus incentive fee or award 
program.
    Ms. McNall. Yes.
    Ms. Dugle. Yes.
    Senator McCaskill. Oh, OK. Well, that makes a difference. 
Well, you guys need to redo this. This is a mess, because it is 
too hard--all of it is counterintuitive. You all are being 
asked to train X-amount of people on not enough money to do 
that. You all are absorbing all the costs that they cannot do 
without really having a handle on what that is costing you 
every year. And, meanwhile, the only way they make any profit 
on them is giving them award and incentive fees for holding 
down costs when you have paid them more than the contract was 
worth most of the years they have had the contract. And you 
wonder why people shake their head. I mean, we have to do 
better at this.
    So, are you ready with performance metrics for the rebid?
    Ms. McNall. We have not yet decided whether or not we will 
use performance metrics for the rebid. One of the concerns we 
have is exactly what you have raised. We have had a great deal 
of difficulty of establishing good award fee criteria and a 
question of--incentive fee works absolutely wonderful if we can 
hold the target cost accurately, right, so there are no changes 
to the contract.
    Senator McCaskill. Right.
    Ms. McNall. If I cannot do those two things, then I have to 
question whether or not I should do either an award or 
incentive fee.
    Senator McCaskill. So, what is wrong with price certain? 
You know the different kinds of training, right? You may not 
know how much you are going to do in each category, but you are 
going to have just as much luck predicting that as you have had 
predicting everything through this whole contract. What is 
wrong with a price certain?
    Ms. McNall. So, what we are considering is a combination of 
firm fixed price, for example, possibly for the Academy 
training--this is not to say we have made any decisions, and, 
of course, I do not want to give any--too much advance 
information that I have not otherwise released to----
    Senator McCaskill. Well, I think people, if you are in this 
hearing room----
    Ms. McNall. Yes.
    Senator McCaskill [continuing]. They know I like price 
certain a lot better than cost-plus.
    Ms. McNall. And I fully agree with you. So, mixed with a 
time and material contract is what we are looking at.
    Senator McCaskill. So, do you think that you all are 
prepared on the innovation front? Do you think it is realistic 
that you can get real innovation with 2 percent? I think $16.7 
million of the $859 million that has been spent was spent on 
innovation. Do you think that is a realistic percentage to 
actually achieve innovation?
    Ms. McNall. No, I do not. The reality is the agency does 
not currently have the budget we would need to do the 
innovation that we know we need to do. Long-term with the 
innovation, it will save the agency money.
    Senator McCaskill. Right.
    Ms. McNall. We also know that. It is short-term funding 
that I am struggling to find.
    Senator McCaskill. What was going on internally, after the 
IG made the recommendation to assess the long-term outlook of 
the ATCOTS program, prior to exercising the option? Why was 
that recommendation ignored before you exercised the option? 
What was going on internally that caused that particular 
recommendation to be set aside?
    Ms. McNall. With the greatest respect, actually, we took 
the recommendation very seriously. So, before we exercised the 
option on the contract, we asked ourselves the following 
questions. Do we now have enough basis to understand what our 
training requirement is? Do we understand it well enough that 
we can establish a target cost? And can we now manage this 
contract like a performance-based contract rather than the 
level of effort contract, which, in all honesty, for the first 
few years of the contract, we treated it much more like a level 
of effort contract than performance-based.
    At the same time, our No. 1 priority is always safety and 
efficiency, so the one thing we knew we could not let drop is 
that steady rate of training. We need that rate of training to 
continue without interruption. So that was No. 1.
    Then it became a question of, well, what is the best 
vehicle? What is my best acquisition vehicle to get to the spot 
I need to be right now, right, as we are using money, and then 
where do I want to go in the longer term?
    Senator McCaskill. Could you speak to what you think, Ms. 
Langan-Feirson, in terms of the exercising the option? It 
appears from the outside that it looked like that they just 
decided to ignore it, but you have spent a lot more time inside 
this agency than, obviously, I have. I want to get your take on 
what you think occurred.
    Ms. Langan-Feirson. I think the most troubling thing for us 
was that in our first report, we basically recommended that 
FAA, after the first couple of years of the overruns, get their 
arms around this. So, we gave them forewarning. Three years 
later, OK, they were backed up against the wall in contract 
year four. Eight months in, they were almost at 80 percent of 
the contract ceiling and they did not have very much time. They 
basically briefed a business case up the chain and the business 
case was, we are out of time, OK. They did not have many 
options left. This was due to lack of advanced planning, plain 
and simple. That is what was going on.
    Senator McCaskill. I have other questions, but you have 
waited. I have had you here for a long time, especially in 
light of the fact that I had to leave and do votes. Do you feel 
like that--you have been there since when, Ms. McNall?
    Ms. McNall. 2011.
    Senator McCaskill. And what part of 2011?
    Ms. McNall. January.
    Senator McCaskill. OK. So, you now have three full years.
    Ms. McNall. Yes.
    Senator McCaskill. Do you have the adequate resources and 
the expertise available to you that you can plan for this next 
competition in a way that the recommendations that have been 
made in two different IG reports will be fully embraced?
    Ms. McNall. Yes.
    Senator McCaskill. OK. That is the answer I wanted. That 
means we have had success. I thank you.
    I thank all three of you. I think you are all strong, 
competent, smart women that are working hard at the task you 
have been given and I hope that you understand that I am weird. 
I like contract oversight, and this is, as you know, I do this 
in many agencies.
    Somebody said something, because I have been on the FAA 
about electronic devices, somebody tweeted me today, ``What's 
up with you and the FAA?'' I said, well, I just love the FAA. 
[Laughter.]
    I hope I have as much success with the rebidding of this 
contract next year as I had with finally allowing us all to use 
our electronic devices when we take off and land.
    So, thank you very much, and we will get you more questions 
for the record.
    Ms. Dugle. Thank you, Senator.
    Ms. McNall. Thank you.
    [Whereupon, at 4:36 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
